No. 20-1012

In the Supreme Court of the United States
CHARLES GUENTHER, PETITIONER

v.
LOCKHEED MARTIN CORPORATION, ET AL.

CERTIFICATE OF COMPLIANCE
I, Nicole A. Saharsky, counsel for Respondents Lockheed Martin Corporation
and Lockheed Martin Corporation Retirement Plan for Certain Salaried Employees,
hereby certify that, according to the word-count tool in Microsoft Word, the brief in
opposition consists of 4,398 words, including footnotes and excluding the sections
enumerated by Rule 33.1(d). The response therefore complies with Rule 33.1(g).

/s/ Nicole A. Saharsky
Nicole A. Saharsky
Mayer Brown LLP
1999 K Street NW
Washington, DC 20006
(202) 263-3000
nsaharsky@mayerbrown.com

